                                    SOCIAL SECURITY

MEMORANDUM
Date:   January 31, 2005                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject: School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)



        The attached final report presents the results of our audit. Our objective was to
        determine the adequacy of the Social Security Administration’s procedures for ensuring
        student beneficiaries over age 18 were entitled to receive benefits in accordance with
        the Social Security Act.

        Please provide within 60 days a corrective action plan that addresses each
        recommendation. If you wish to discuss the final report, please call me or have
        your staff contact Steven L. Schaeffer, Assistant Inspector General for Audit, at
        (410) 965-9700.




                                                        S
                                                        Patrick P. O’Carroll, Jr.

        Attachment
           OFFICE OF
    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION



     SCHOOL ATTENDANCE BY
     STUDENT BENEFICIARIES
          OVER AGE 18

   January 2005   A-09-04-14013




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                               Executive Summary
OBJECTIVE
Our objective was to determine the adequacy of the Social Security Administration’s
(SSA) procedures for ensuring student beneficiaries over age 18 were entitled to
receive benefits in accordance with the Social Security Act (Act).

BACKGROUND
Title II of the Act provides benefits to children upon the worker’s retirement, death, or
disability. Generally, child beneficiaries may receive benefits until they marry or reach
age 18. Amendments to the Act provide for extended benefits beyond age 18 to enable
child beneficiaries who are full-time students at an elementary or secondary school
to complete their education. SSA relies on student beneficiaries to voluntarily report
events that may affect their continuing entitlement to benefits. For example, students
who attend school part-time or have graduated or dropped out are no longer eligible for
benefits. In addition, students who are married, convicted of a crime, or paid by their
employer to attend school are not eligible for benefits.

RESULTS OF REVIEW
SSA needs to improve its controls to ensure student beneficiaries are entitled to
benefits. Based on a random sample of 300 students, we found that SSA disbursed
$202,917 in incorrect payments to 61 students from October 2000 to August 2003. We
also found that SSA disbursed $56,065 in unsupported payments to 13 students from
October 2000 to July 2003. This occurred, in part, because (1) students and schools
did not promptly report changes in full-time attendance, and (2) SSA did not always
retain supporting documentation for its benefit payments. Projecting these results to our
population of 254,121 students, we estimate that SSA disbursed about $70 million in
incorrect payments to 32,839 students and $39.5 million in unsupported payments to
10,312 students.

RECOMMENDATIONS
We recommend that SSA take corrective action to ensure overpayments are
established and collection activities are initiated for the incorrect and unsupported
payments identified by our audit. In addition, we recommend that SSA (1) revise the
Form SSA-1372, Student’s Statement Regarding School Attendance, and Notice of
Cessation of Full-Time School Attendance; (2) develop a fact sheet for distribution to
school officials; and (3) ensure the Form SSA-1372 is retained in the student’s claim
folder or scanned into the paperless imaging system.

AGENCY COMMENTS
SSA agreed with all of our recommendations.



School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)
                                                                      Table of Contents
                                                                                                                Page


INTRODUCTION.....................................................................................................1

RESULTS OF REVIEW ..........................................................................................2

Incorrect Payments .................................................................................................2

   Students Who Had Not Attended School ...........................................................3

   Students Who Dropped Out or Attended School Part-Time...............................4

   Students Who Graduated or Reached Age 19...................................................5

Unsupported Payments...........................................................................................6

   Unable to Locate School or Student ..................................................................7

   School Attendance Not Fully Verified.................................................................7

CONCLUSIONS AND RECOMMENDATIONS.......................................................9

APPENDICES

APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments




School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)
                                                                           Introduction
OBJECTIVE
Our objective was to determine the adequacy of the Social Security Administration’s
(SSA) procedures for ensuring student beneficiaries over age 18 were entitled to
receive benefits in accordance with the Social Security Act (Act).

BACKGROUND
Title II of the Act provides benefits to children upon the worker’s retirement, death, or
disability.1 Generally, child beneficiaries may receive benefits until they marry or reach
age 18. Amendments to the Act provide for extended benefits beyond age 18 to enable
child beneficiaries who are full-time students at an elementary or secondary school
to complete their education.2 The Act states that a student beneficiary is entitled to
Social Security benefits if he or she is a full-time student at an elementary or secondary
school upon reaching age 18 and has not completed the requirements for a diploma or
equivalency certificate.3

SSA relies on student beneficiaries to voluntarily report events that may affect their
continuing entitlement to benefits. For example, students who attend school part-time
or have graduated or dropped out are no longer eligible for benefits. In addition,
students who are married, convicted of a crime, or paid by their employer to attend
school are not eligible for benefits. SSA monitors and administers all phases of student
entitlement, including developing the claim, reviewing eligibility criteria, verifying school
attendance, and awarding benefit payments.

Prior audit work disclosed that student beneficiaries received incorrect and unsupported
payments of $73.9 and $140.4 million, respectively.4 In response to our audit, SSA
redesigned its student monitoring system in March 2001. Specifically, SSA revised
its forms and reporting requirements, obtained school certification before awarding
student benefits, shifted the workload from processing centers (PC) to field offices (FO),
provided additional training and guidance to its employees, and implemented systems
modifications to preclude payments beyond the maximum age of entitlement.5

1
    The Social Security Act § 202(d)(1), 42 U.S.C. § 402(d)(1) (2004).
2
    Pub. L. No. 89-97, 79 Stat. 372 and Pub. L. No. 97-35, 95 Stat. 841.
3
    The Social Security Act § 202(d)(1), 42 U.S.C. § 402(d)(1) (2004).
4
    SSA, OIG, School Attendance by Child Beneficiaries over Age 18 (A-09-97-61007), September 1999.
5
  We evaluated the effectiveness of SSA’s controls to detect and prevent payments to student
beneficiaries beyond the maximum age of entitlement in a separate audit, Payments to Student
Beneficiaries Beyond the Maximum Age of Entitlement (A-09-04-14050), August 2004.


School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                                1
                                                        Results of Review
SSA needs to improve its controls to ensure student beneficiaries are entitled to
benefits. Based on a random sample of 300 students, SSA incorrectly paid $202,917 in
benefits to 61 students from October 2000 to August 2003. In addition, SSA did not
retain documentation to support $56,065 in benefits to 13 students from October 2000
to July 2003. Projecting these results to our population of 254,121 students, we
estimate that SSA disbursed incorrect and unsupported payments of $70 million and
$39.5 million, respectively (see Appendix C).6 The results of our review are
summarized below.



              Summary of Student Beneficiaries Reviewed
                            Sample of 300 Students over Age 18

          Correct                                                                  Incorrect
      Payments (75.4%)                                                          Payments (20.3%)




                                                                                  Unsupported
                                                                                 Payments (4.3%)




INCORRECT PAYMENTS

Our audit disclosed that SSA disbursed incorrect payments to 61 (20.3 percent) of
the 300 students in our sample. This occurred, in part, because (1) students did not
report events that affected their benefit status in an accurate and timely manner and
(2) schools were not fully aware of the notification procedures for reporting such events


6
  Of this amount, SSA disbursed $67,900 in incorrect payments to 39 students and $17,947 in
unsupported payments to 12 students during the 2001-2002 school year (that is, between
September 2001 and August 2002). Projecting these results to our population of 254,121 students,
we estimate that SSA may disburse about $40.4 million in incorrect payments to 27,500 students
and $17.7 million in unsupported payments to 10,165 students each year (see Appendix C).


School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                             2
to SSA. As a result, these students received $202,917 in benefits to which they were
not entitled. The following chart provides a breakdown of the incorrect payments
questioned by our audit.


                             Incorrect Payments to 61 Student Beneficiaries
                                              Sample of 300 Students over Age 18

                             35

                             30

                             25
        Number of Students




                             20

                             15

                             10

                              5

                              0
                                     Did Not      Attended    Dropped Out    Paid Past   Paid Past
                                  Attend School   Part-Time    of School    Graduation    Age 19




Students Who Had Not Attended School

      Incorrect       For 3 of the 61 incorrect payments, we found the student
      Payments        beneficiaries were ineligible for any benefits. Based on our
      for Entire      interviews with school officials, we determined these students had
     School Year      not attended school after reaching age 18. In addition, school
                      officials did not always receive or retain the Notice of Cessation of
Full-Time School Attendance to notify SSA of any changes in full-time attendance for its
students. Although the beneficiaries applied for student benefits and were in full-time
attendance before age 18, they did not return to school after age 18. As a result, these
individuals were not entitled to receive student benefits.

SSA mails the Form SSA-1372, Student’s Statement Regarding School Attendance,
to child beneficiaries about 3 months before they reach age 18. To receive benefits
beyond age 18, students must complete and submit the Form SSA-1372 to school
officials for certification. SSA also requires that students provide the Notice of
Cessation of Full-Time School Attendance, along with the Form SSA-1372, to school
officials. SSA requests school officials to complete and return the notice when the
student is no longer in full-time attendance.7


7
    SSA, Program Operations Manual System (POMS), RS 00205.400 and RS 00205.350.


School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                               3
During our audit, we noted that many schools had not received or retained the
Notice of Cessation of Full-Time School Attendance. Therefore, school officials were
unable to readily notify SSA of any changes in full-time attendance for its student
beneficiaries. To improve program operations, we encourage SSA to revise the Form
SSA-1372 to require that school officials acknowledge receipt of the Notice of Cessation
of Full-Time School Attendance when they certify the full-time attendance for the
student.

Students Who Dropped Out or Attended School Part-Time

       Incorrect       For 34 of the 61 incorrect payments, we found the student
      Payments         beneficiaries were eligible for benefits but did not attend school
      for Part of      full-time. Based on our interviews with school officials, we
     School Year       determined that 31 students dropped out during the school year,
                       and 3 students only attended school part-time. Neither the
students nor the schools had notified SSA of these events. In addition, school officials
were not fully aware of their role and responsibilities in monitoring and reporting
changes in full-time attendance to the Agency. As a result, these individuals were no
longer entitled to receive student benefits.

SSA awards benefits to students over age 18 who are in full-time attendance at an
elementary or secondary school, including a General Education Development program.8
Generally, students must attend noncorrespondence courses at least 20 hours per
week to qualify for benefits. SSA relies on students and schools to report any changes
in full-time attendance during the school year. However, students may receive benefits
for periods of nonattendance of 4 months or less (for example, during summer vacation)
if they previously were in full-time attendance and subsequently returned to school.9

For example, we identified a student who dropped out of school but continued to
receive benefits for an additional 12 months. This student was born in July 1984 and
reached age 18 in July 2002. According to school officials, he generally attended
school about 26 hours per week—despite multiple periods of nonattendance—through
August 1, 2002. After that, the student dropped out and did not return to school.
However, school officials did not receive or retain the Notice of Cessation of Full-Time
School Attendance and were unaware of the procedures for reporting changes in
full-time attendance to SSA. Although he was only entitled to student benefits for
July and August 2002, SSA did not terminate benefits until September 2003. As a
result, the student received $12,078 in overpayments. We subsequently referred this
case to our Office of Investigations.




8
    SSA, POMS, RS 00205.001 and RS 00205.340.
9
    SSA, POMS, RS 00205.400 and RS 00205.320.


School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                     4
In November 2001, SSA launched a website to inform school officials about the student
entitlement process, including notification procedures and frequently asked questions.
The website allows school officials to download the Notice of Cessation of Full-Time
School Attendance. However, SSA did not include its website address on the Form
SSA-1372. We found that most schools were unaware of the availability of the Notice
of Cessation of Full-Time School Attendance from SSA’s website. To address these
concerns, SSA revised the Form SSA-1372 to include its website for school officials.

In addition, we found that many schools were unaware of their role and responsibilities
in identifying and reporting changes in full-time attendance to SSA. Therefore, we
encourage SSA to develop and distribute a fact sheet to school officials. At a minimum,
the fact sheet should include an overview of the program, reporting responsibilities for
schools and students, and instructions for the Notice of Cessation of Full-Time School
Attendance. Such information may be useful to obtain assistance from school officials
in monitoring the attendance of student beneficiaries and reporting events that may
affect their benefit status.

Students Who Graduated or Reached Age 19

       Incorrect       For 24 of the 61 incorrect payments, we found the student
       Payments        beneficiaries were eligible for benefits but received overpayments
      After End of     after the end of their school year. Based on our interviews with
      School Year      school officials, we determined that 22 students had already
                       graduated, and 2 students had reached age 19 by the end of their
school year. Nevertheless, SSA continued to disburse payments to these individuals.
In addition, school officials informed us the students’ actual graduation dates sometimes
preceded the expected graduation dates on the Form SSA-1372. As a result, these
individuals were no longer entitled to receive student benefits.

SSA terminates benefits to students when they graduate or reach age 19, whichever
occurs first. However, students who complete the requirements for a diploma or
equivalency certificate may continue to attend school full-time and receive benefits up to
age 19. If the graduation ceremony is held the month after full-time attendance ends,
the student is considered to be in full-time attendance for the month of graduation, even
if the ceremony occurs in or after the month in which the student reaches age 19.10

For example, we identified a student who graduated from school but continued to
receive benefits for an additional 8 months. This student was born in March 1983 and
reached age 18 in March 2001. Based on the Form SSA-1372, his expected graduation
date was July 2002. According to school officials, the actual graduation date was
June 2001. The student did not return to school after the graduation ceremony, which
was held on June 10, 2001. However, school officials did not receive or retain the
Notice of Cessation of Full-Time School Attendance. Although he was only entitled
to student benefits through June 2001, SSA did not terminate benefits until the


10
     SSA, POMS, RS 00205.325 and RS 00205.310.


School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                  5
student reached age 19 in March 2002. As a result, the student received $6,567 in
overpayments. We subsequently referred this case to our Office of Investigations.

During our audit, we noted the Notice of Cessation of Full-Time School Attendance
neither specifically requests school officials to report changes in graduation dates
to SSA nor identifies the student’s expected graduation date as reported on the
Form SSA-1372. Without such information, we believe school officials may be
ill-equipped to readily determine any changes between the expected and actual
graduation dates. We encourage SSA to revise the Notice of Cessation of Full-Time
School Attendance to request schools to identify students who graduated earlier than
expected.

UNSUPPORTED PAYMENTS
Our audit disclosed that SSA was unable to provide supporting documentation for
its decision to award benefits to 13 (4.3 percent) of the 300 students in our sample.
This occurred because SSA had not retained sufficient information—either in paper
or electronic form—to support its basis for awarding benefit payments. As a result,
these students may have received $56,065 in benefits to which they were not entitled.
The following chart provides a breakdown of the incorrect payments questioned by
our audit.



                   Unsupported Payments to 13 Student Beneficiaries
                               Sample of 300 Students over Age 18


                          10
     Number of Students




                          8

                                                                     Unable to Locate
                          6                                          School or Student

                                                                     School Attendance
                          4                                          Not Fully Verified


                          2


                          0




School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                    6
Unable to Locate School or Student

      Unsupported    For 9 of the 13 unsupported payments, SSA could not retrieve
       Payments      the Form SSA-1372 for the student beneficiaries. In addition, SSA
        with No      did not maintain adequate records to otherwise determine the
     Documentation   whereabouts of the student or the school. Using information from
                     the student’s claim folder, SSA’s automated system, and other
available resources (that is, Internet databases), we attempted to locate the students
and identify the schools they had attended. However, we were unsuccessful in our
efforts. Without supporting documentation, we could not determine the propriety of
benefit payments to these individuals.

SSA requires that child beneficiaries submit the Form SSA-1372 to establish their
eligibility for student benefits.11 Effective May 2002, SSA must retain the Form
SSA-1372 in the student’s claim folder until the folder is destroyed. As an alternative,
SSA may retain documents electronically by scanning the paper forms into its paperless
imaging system. The paper forms may be destroyed once the image is determined to
be clearly readable.12

We believe the lack of supporting documentation raises questions about the integrity
of the student entitlement process. If the Form SSA-1372 cannot be located, our audit
disclosed that it is very difficult—if not impossible—to identify the school. Therefore, we
encourage SSA to direct its FOs and PCs to improve adherence to retention policies for
the Form SSA-1372. Specifically, SSA should ensure supporting documentation is
retained in the student’s claim folder or scanned into the paperless imaging system.

School Attendance Not Fully Verified

      Unsupported     For 4 of the 13 unsupported payments, we could not obtain
       Payments       sufficient evidence to verify school attendance for the student
       with Partial   beneficiaries. Although SSA generally provided the Form
     Documentation    SSA-1372 for these students, we were unable to verify, in whole
                      or in part, whether they had attended school full-time for the entire
school year. In some instances, the students had changed schools without notifying
SSA. In other instances, the schools had closed or were located in foreign countries.
Without additional information, we were unable to determine the adequacy of support
for the benefit payments.




11
   In addition, any students born before June 2, 1983 must submit the Forms SSA-1386, Student’s
Statement Regarding Resumption of School Attendance; SSA-1388, Report of Student Beneficiary at End
of School Year; and SSA-1390, Report of Student Beneficiary About to Attain Age 19. SSA discontinued
these Forms in November 2002.
12
     SSA, POMS, GN 01085.025 and GN 01085.030.


School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                           7
SSA procedures state that FOs must attempt to make personal contacts with students
and document such contacts in its payment records before awarding benefits.13 In
addition, SSA must verify that student beneficiaries attend school full-time for all periods
of attendance, whether current or retroactive, after they reach age 18. Students who
change schools or simultaneously attend more than one school must notify SSA,
complete another Form SSA-1372, and obtain school certification. If SSA is unable to
verify full-time attendance, the student is ineligible for benefits.14

During our audit, we attempted to independently verify full-time attendance with the
schools and students. However, we could not fully account for all periods of school
attendance after the students reached age 18. In addition, we found no evidence
to indicate that SSA had attempted to contact the students. Therefore, we were unable
to determine whether SSA had adequately developed the cases or supported the
development of these cases. To prevent future occurrences of similar problems, we
encourage SSA to properly maintain supporting documentation for student benefits
either in paper or electronic form.




13
     SSA, POMS, RS 00205.375 and RS 00205.740.
14
     SSA, POMS, RS 00205.400 and RS 00205.350.


School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                    8
                                                   Conclusions and
                                                  Recommendations
Based on a random sample of 300 students, we found that SSA disbursed
$202,917 in incorrect payments to 61 students from October 2000 to August 2003.
We also found that SSA disbursed $56,065 in unsupported payments to 13 students
from October 2000 to July 2003. Projecting these results to our population of
254,121 students, we estimate that SSA disbursed about $70 million in incorrect
payments to 32,839 students and $39.5 million in unsupported payments to
10,312 students (see Appendix C).

We believe additional actions are necessary to strengthen program integrity and deter
fraud, waste, and abuse. These actions should provide for timely identification of
events that affect student entitlement, thereby reducing the potential for incorrect and
unsupported payments. Such actions should also reduce the Agency’s vulnerability to
individuals who misrepresent their school attendance to receive undue benefits.
Therefore, we recommend that SSA:
1. Take corrective action to ensure overpayments are established and collection
   activities are initiated for the 61 incorrect payments and 13 unsupported payments
   identified by our audit;
2. Evaluate the feasibility of establishing overpayments and initiating collection
   activities for the remaining incorrect and unsupported payments questioned by
   our audit;
3. Revise the Form SSA-1372 to require that school officials acknowledge receipt of
   the Notice of Cessation of Full-Time School Attendance when they certify the
   full-time attendance of student beneficiaries;
4. Develop a fact sheet to provide information about reporting responsibilities for
   student beneficiaries and encourage FOs to distribute the fact sheet to school
   officials;
5. Revise the Notice of Cessation of Full-Time School Attendance to (1) request that
   schools report changes in graduation dates to SSA and (2) include the student’s
   expected graduation date, as reported on the Form SSA-1372, on the Notice of
   Cessation of Full-Time School Attendance; and
6. Direct FOs and PCs to improve adherence to retention policies for the Form
   SSA-1372 and ensure supporting documentation is retained in the student’s claim
   folder or scanned into the paperless imaging system.

AGENCY COMMENTS
SSA agreed with all of our recommendations. See Appendix D for the text of SSA’s
comments.


School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                     9
                                           Appendices




School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)
                                                                         Appendix A

Acronyms
Act                          Social Security Act

FO                           Field Office

Form SSA-1372                Student’s Statement Regarding School Attendance

MBR                          Master Beneficiary Record

PC                           Processing Center

POMS                         Program Operations Manual System

Pub. L.                      Public Law

SSA                          Social Security Administration

U.S.C.                       United States Code




School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)
                                                                         Appendix B

Scope and Methodology
Based on the Social Security Administration’s (SSA) Master Beneficiary Record
(MBR), we obtained a data extract of student beneficiaries who were over age 18 and
had received student benefits during the 2001-2002 school year (that is, between
September 2001 and August 2002). Accordingly, we identified 254,121 students
who received 1 or more benefit payments during this period.

From this population, we randomly selected a stratified sample of 300 students
for review. Specifically, we selected 100 students from each of the following
3 strata: (1) 14,727 students who were receiving benefits as of June 2003;
(2) 40,744 students whose benefits were terminated because they had reached
age 19; and (3) 198,650 students whose benefits were terminated because they
did not attend school.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act (Act), U.S. Code, and
    SSA’s Program Operations Manual System;

•   interviewed SSA employees from the Western Program Service Center and the
    Offices of Central Operations, Income Security Programs, Systems Design and
    Development, Retirement and Survivors Insurance Systems, and Public Services
    and Operations Support;

•   extracted a random sample of 300 student beneficiaries and obtained queries from
    SSA’s MBR;

•   requested the Form SSA-1372, Student’s Statement Regarding School Attendance,
    for the students in our sample;

•   requested case folders to review supporting documentation for the benefit payments
    awarded to the students in our sample;

•   contacted schools and students, via telephone and fax, to verify school attendance
    and operating basis for the students in our sample;

•   visited Internet websites (such as www.whitepages.com and www.greatschools.net)
    to locate the students and identify the schools they had attended;

•   used Autotrack XP, an Internet database, to obtain current addresses and telephone
    numbers for the students in our sample; and



School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                  B-1
•   reviewed the corrective actions taken by SSA in response to our September 1999
    audit of School Attendance by Child Beneficiaries over Age 18 (A-09-97-61007).

We determined the computer-processed data from the MBR were sufficiently reliable for
our intended use. We conducted tests to determine the completeness and accuracy of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives.

We evaluated the adequacy of SSA’s controls and procedures for ensuring student
beneficiaries over age 18 were entitled to receive student benefits in accordance with
the Act. Specifically, we determined the propriety of benefits awarded to the students
and the adequacy of support for the payments. The incorrect and unsupported
payments questioned by our audit represent net overpayments that were reduced
by any underpayments due other individuals in the same family. These amounts
include all questioned costs related to student entitlement, including any incorrect
and unsupported payments before or after the 2001-2002 school year.

We performed audit work in Richmond, California, and Baltimore, Maryland, between
June 2003 and May 2004. The entities audited were SSA’s field offices under the
Deputy Commissioner for Operations and the Office of Income Security Programs
under the Deputy Commissioner for Disability and Income Security Programs. We
conducted our audit in accordance with generally accepted government auditing
standards.




School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)               B-2
                                                                          Appendix C

Sampling Methodology and Results
We obtained a data extract from the Social Security Administration’s (SSA) Master
Beneficiary Record (MBR) of 254,121 student beneficiaries with a date of birth between
October 1, 1982 and July 31, 1984. According to the MBR, these students received
one or more benefit payments during the 2001-2002 school year (that is, between
September 2001 and August 2002).

As of June 2003, 14,727 students (5.8 percent) were in current pay status. These
cases were identified with a payment status code of “C” on the MBR. In addition,
40,744 students (16.0 percent) were in terminated pay status because they had
reached age 19. These cases were identified with a payment status code of “T4” on
the MBR. The remaining 198,650 students (78.2 percent) were in terminated pay status
because they did not attend school. These cases were identified with a payment status
code of “T6” on the MBR.

We randomly selected 100 students from each of the 3 payment status codes (that is,
“C,” “T4,” and “T6”) in our population. Using a stratified statistical sample, we selected
300 students for review. We verified school attendance for these students to determine
their initial eligibility for and continuing entitlement to benefits. We also reviewed the
adequacy of support for the payments. The following table provides the details of our
population and sample size.

                         Table 1 – Population and Sample Size

           Strata                      Population Size                   Sample Size
 Current Pay Status                        14,727                           100
 “T4” Pay Status                           40,744                           100
 “T6” Pay Status                          198,650                           100
 Total                                    254,121                           300

Based on a random sample of 300 students, we found that SSA disbursed
$202,917 in incorrect payments to 61 students from October 2000 to August 2003.
We also found that SSA disbursed $56,065 in unsupported payments to 13 students
from October 2000 to July 2003. Projecting these results to our population of
254,121 students, we estimate that SSA disbursed about $70 million in incorrect
payments to 32,839 students and $39.5 million in unsupported payments to
10,312 students. The following tables provide the details of our sample results
and statistical projections.




School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                 C-1
                   Table 2 – Sample Results for Incorrect Payments
                             October 2000 to August 2003

           Strata                     Number of Errors               Amount of Errors
 Current Pay Status                        30                          $131,875
 “T4” Pay Status                           21                            57,353
 “T6” Pay Status                           10                            13,689
 Total                                     61                          $202,917

                Table 3 – Sample Results for Unsupported Payments
                            October 2000 to August 2003

           Strata                     Number of Errors               Amount of Errors
 Current Pay Status                          5                          $21,423
 “T4” Pay Status                             4                           20,581
 “T6” Pay Status                             4                           14,061
 Total                                     13                           $56,065

                Table 4 – Statistical Projections for Number of Errors
                            October 2000 to August 2003

                              Incorrect             Unsupported
      Projection              Payments               Payments                 Total
 Point Estimate                32,839                 10,312                 43,151
 Lower Limit                   22,556                  3,724
 Upper Limit                   43,123                 16,901

                Table 5 – Statistical Projections for Amount of Errors
                            October 2000 to August 2003

                             Incorrect              Unsupported
      Projection             Payments                Payments                Total
 Point Estimate             $69,982,336             $39,472,664          $109,455,000
 Lower Limit                 47,539,734               9,259,310
 Upper Limit                $92,424,938             $69,686,019

Of this amount, we found that SSA disbursed $67,900 in incorrect payments to
39 students and $17,947 in unsupported payments to 12 students during the
2001-2002 school year (that is, between September 2001 and August 2002).
Projecting these results to our population of 254,121 students, we estimate that
SSA may disburse about $40.4 million in incorrect payments to 27,500 students and
$17.7 million in unsupported payments to 10,165 students each year. The following
tables provide the details of our sample results and statistical projections.




School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                  C-2
                   Table 6 – Sample Results for Incorrect Payments
                            September 2001 to August 2002

           Strata                     Number of Errors               Amount of Errors
 Current Pay Status                        10                           $15,338
 “T4” Pay Status                           20                            41,989
 “T6” Pay Status                             9                           10,573
 Total                                     39                           $67,900

                Table 7 – Sample Results for Unsupported Payments
                           September 2001 to August 2002

           Strata                     Number of Errors               Amount of Errors
 Current Pay Status                          4                           $4,358
 “T4” Pay Status                             4                            6,311
 “T6” Pay Status                             4                            7,278
 Total                                     12                           $17,947

                Table 8 – Statistical Projections for Number of Errors
                           September 2001 to August 2002

                              Incorrect             Unsupported
      Projection              Payments               Payments                   Total
 Point Estimate                27,500                 10,165                   37,665
 Lower Limit                   17,699                  3,580
 Upper Limit                   37,301                 16,749

                Table 9 – Statistical Projections for Amount of Errors
                           September 2001 to August 2002

                             Incorrect              Unsupported
      Projection             Payments                Payments                Total
 Point Estimate             $40,370,090             $17,670,904           $58,040,994
 Lower Limit                 22,713,877               5,260,899
 Upper Limit                $58,026,303             $30,080,908

All statistical projections are reported at the 90-percent confidence level.




School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                  C-3
                                                                         Appendix D

Agency Comments




School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)
School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)   D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT FOLLOW-UP REVIEW OF “SCHOOL ATTENDANCE BY STUDENT
BENEFICIARIES OVER AGE 18" (A-09-04-14013)


Thank you for the opportunity to review and comment on the draft report. We appreciate your
conducting this follow-up audit to determine if staff are complying with the March 2001
redesigned student entitlement system and process. We are committed to ensuring that student
benefits are paid in accordance with applicable laws, rules and procedures. In addition to the
implementation of the March 2001 redesigned process, we have also made strides to improve the
monitoring of student entitlement with our Title 2 Redesign system enhancements. Recent
changes to various input screens and online edits require additional and timelier information in
order to process student reports. These system changes do not allow students to receive benefits
past age 19 without proper eligibility inputs. We believe that taking corrective actions on the
issues identified in this report, along with the recently implemented systems enhancements,
should help ensure that benefits are paid only to those who are entitled to them. Our responses to
the specific recommendations below provide additional information on the steps we have already
taken, or plan to take, to strengthen the administration of our student benefit payments.

Recommendation 1

The Social Security Administration (SSA) should take corrective action to ensure overpayments
are established, and collection activities are initiated, for the 61 incorrect payments and
13 unsupported payments identified by our audit.

Response

We agree. All of the accounts were sent to the processing centers on December 1, 2004, for
corrective action. A report on each account is due by March 1, 2005.

Recommendation 2

SSA should evaluate the feasibility of establishing overpayments and initiating collection
activities for the remaining incorrect and unsupported payments questioned by our audit.

Response

We agree. Additional analysis should be performed to identify payment errors to student
beneficiaries. However, the recommendation, as stated, would require SSA to review the entire
student beneficiary population from October 2000 to July 2003, which would involve
redeveloping the entitlement for 254,121 students. Instead, we will work with OIG to review a
sample of these student accounts to establish criteria that will identify those cases most likely to
result in overpayments.




School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                           D-2
Recommendation 3

SSA should revise the Form SSA-1372 to require that school officials acknowledge receipt of the
Notice of Cessation of Full-Time School Attendance when they certify the full-time attendance of
student beneficiaries.

Response

We agree. We have redesigned the Form SSA-1372 to include certification by the school official
that he/she received the Notice of Cessation of Full-Time School Attendance. The form is
currently in the Office of Management and Budget's clearance process.

Recommendation 4

SSA should develop a fact sheet to provide information about reporting responsibilities for
student beneficiaries and encourage field offices (FO) to distribute the fact sheet to school
officials.

Response

We agree. Our Offices of Operations and Disability and Income Security Programs will jointly
develop a fact sheet about student reporting responsibilities by December 31, 2004.

Further, we currently have a website for school officials, http://www.ssa.gov/schoolofficials/,
which gives teachers and school officials online information for reporting student information.

Recommendation 5

SSA should revise the Notice of Cessation of Full-Time School Attendance to (1) request that
schools report changes in graduation dates to SSA and (2) include the student’s expected
graduation date, as reported on the Form SSA-1372, on the Notice of Cessation of Full-Time
School Attendance.

Response

We agree. We have revised the Notice of Cessation of Full-Time School Attendance, requesting
that school officials report if the student stops attending school or graduates earlier than the date
the student provided on page 2 of the Form SSA-1372. The redesigned form will include copies
of the information supplied by the student and certified by the school. School officials can keep
the copies as a reference in order to provide SSA with the requested notification when a student
leaves early or graduates prior to the expected date.




School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                           D-3
Recommendation 6

SSA should direct FOs and Payment Centers (PC) to improve adherence to retention policies for
the Form SSA-1372 and ensure supporting documentation is retained in the student’s claim
folder or scanned into the paperless imaging system.

Response

We agree. On July 15, 2004, we issued Administrative Message (AM) 04104 (Retention of
Form SSA-1372 for Student Benefits) to the FOs and PCs. This AM provides reminder items
regarding retention of the Form SSA-1372 as required in the Program and Operations Manual
System (POMS) sections GN 01085.025 and GN 01085.030. We also issue regular PolicyNet
updates (i.e., MSS04-171 MCS) as reminders to employees concerning FO and PC adherence to
retention policies for student information.


[SSA also provided technical comments which have been incorporated into this report
where appropirate.]




School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)                    D-4
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments
In addition to those named above:

   Timothy E. Meinholz, Senior Auditor

   Regina Finley, Auditor

   Manfei Lau, Auditor

   Nicole Kato Sullivan, Auditor

   Wilfred Wong, Auditor

   Brennan Kraje, Statistician

   Kimberly Beauchamp, Writer-Editor


For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 966-1375. Refer to Common Identification Number
A-09-04-14013.




School Attendance by Student Beneficiaries over Age 18 (A-09-04-14013)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General

The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.

                                        Office of Audit

OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations

OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                   Office of the Chief Counsel to the Inspector General

OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.

                               Office of Executive Operations

OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
